                               OFFICE OF INSPECTOR GENERAL
                                  Washington, DC 20091-0001




April 30, 2009


The Honorable Dan G. Blair
Chairman
Postal Regulatory Commission
901 New York Avenue, NW, Suite 200
Washington, DC 20268-0001

Dear Chairman Blair:

I am pleased to enclose the Office of Inspector General’s Semiannual Report to Congress.

This report covers audits, investigations and other reviews conducted by the Office of Inspector
General from October 1, 2008 through March 31, 2009.

In accordance with Section 5(b) of the Inspector General Act of 1978, please transmit this report
to the appropriate House and Senate Committees by May 30, 2009, along with the Postal
Regulatory Commission’s report on audit recommendations and any comments you may have.

I greatly appreciate the continued assistance you, the Commissioners, and the Commission’s
staff have provided to the Office of Inspector General. I look forward to continuing to work with
you to improve Commission operations in the future.

Sincerely,



Jack Callender
Inspector General




                         P.O. Box 50264 • (202) 789-6817 • prc-ig@prc.gov
POSTAL REGULATORY COMMISSION

 OFFICE OF INSPECTOR GENERAL




SEMIANNUAL REPORT TO CONGRESS

 October 1, 2008 through March 31, 2009
                                 TABLE OF CONTENTS



                                                                                                PAGE

Introduction........................................................................................ 2

Activities of the Office of Inspector General .................................... 3

Inspector General Act Reports .......................................................... 5

Contact Information ........................................................................... 8
INTRODUCTION
   THE POSTAL REGULATORY COMMISSION
       The Postal Regulatory Commission is an independent federal agency established
       (as the Postal Rate Commission) by the Postal Reorganization Act of 1970. From
       its establishment through the enactment of the Postal Accountability and
       Enhancement Act (PAEA) of 2006, the Commission primarily received United
       States Postal Service proposals for domestic mail rates and classifications,
       presided over litigation regarding those proposals, and recommended rates and
       classifications to the Board of Governors of the United States Postal Service.
       PAEA, which was enacted on December 20, 2006, re-designated the Commission,
       expanded its jurisdiction to include international mail and service standards, and
       charged the Commission with implementing a new system of postal rate
       regulation.

       The Postal Regulatory Commission consists of five Commissioners who are
       appointed for six-year terms by the President, with the advice and consent of the
       Senate. No more than three of the Commissioners can be members of the same
       political party. The President designates one of the Commissioners to serve as
       Chairman, and the Commissioners, by majority vote, select one Commissioner to
       serve as Vice Chairman. In October 2008, Commissioner Ruth Goldway was
       sworn in to a third term on the Commission, and Commissioner Nanci Langley
       was elected the Commission’s Vice Chairman.

       By the end of the reporting period, the Commission had completed most of the
       remaining tasks towards implementing PAEA. Most significantly, the
       Commission issued its PAEA-required report on universal postal service and the
       postal monopoly, as well as its second Annual Compliance Determination and
       second market-dominant rate case under the new system. The Commission also
       hosted a conference of international postal regulators.


   THE OFFICE OF INSPECTOR GENERAL
       The Commission established the Office of Inspector General (OIG) on June 15,
       2007 and hired the first Inspector General on June 23, 2007. During the
       reporting period, OIG had two full-time employees—the Inspector General and
       an administrative assistant. OIG was assisted in the conduct of its audits during
       the reporting period by four auditors on detail from the United States Postal
       Service Office of Inspector General.




                                        2
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL
   AUDITS AND EVALUATIONS
       Under the Inspector General Act of 1978 as amended (IG Act), the Inspector
       General provides policy direction and conducts, supervises and coordinates
       audits relating to programs and operations of the Postal Regulatory Commission.

       During the reporting period, OIG completed one final audit report and one
       inspection report, and initiated two additional audits. These are summarized
       below:

       FINAL AUDIT REPORT: FISMA COMPLIANCE AND INFORMATION SECURITY
       CONTROLS

       OIG initiated an audit of the Commission’s compliance with the Federal
       Information Security Management Act and to determine whether information
       security control issues in a prior audit (AR-07-02A-01) had been adequately
       addressed. OIG found that the Commission had made substantial progress
       towards FISMA compliance, and towards implementing the recommendations of
       the prior audit report. The final audit report included three recommendations.
       Management agreed with these recommendations, and set target dates for the
       implementation of each.

       FINAL INSPECTION REPORT: CONDUCT OF THE STUDY ON UNIVERSAL POSTAL
       SERVICE AND THE POSTAL MONOPOLY

       At the request of Representative Danny K. Davis, then Chairman of the House
       Subcommittee on Federal Workforce, Postal Service, and the District of
       Columbia, OIG initiated a review of the role of a contractor in preparing the
       Commission’s study of the Postal Service’s universal service obligation and
       monopolies. The review found that the contractor was providing research and
       technical analysis on nine topics relevant to the Commission’s study, while the
       Commission was drafting the report and making all policy determinations.
       OIG’s report recommended that the Commission release the contractor’s work
       product to the public upon publication of the study. Also, OIG’s report
       recommended that future contracts include, when appropriate, clear deadlines for
       performance with penalties for late performance. Management agreed with both
       recommendations, and released the contractor’s work products when its study
       was published on December 19, 2008.

       ONGOING AUDITS

       During the reporting period, OIG initiated audits of the Commission’s policies


                                       3
     and procedures regarding travel and personnel management. Both audits were
     ongoing at the close of the reporting period.


INVESTIGATIVE ACTIVITIES
     Under the IG Act, OIG receives and investigates allegations of fraud, waste,
     abuse and misconduct within Commission programs and operations. OIG
     investigations can give rise to administrative, civil and criminal penalties.

     In order to facilitate reporting of allegations, OIG maintains a hotline (see
     “Contacting the Office of Inspector General,” Page 8). During the reporting
     period, OIG received hotline contacts via postal mail, electronic mail and
     telephone. Many were complaints regarding the United States Postal Service,
     which OIG forwarded for action.

     OIG did not refer any matters to prosecutors during the reporting period.


OTHER ACTIVITIES
     REGULATORY REVIEW

     Under Section 4(a)(2) of the IG Act, OIG reviews drafts of proposed
     Commission rules and regulations. During the reporting period, OIG provided
     comments regarding draft Commission regulations and policies, including
     revised Privacy Act rules of conduct, and draft regulations on treatment of
     confidential material.

     LIAISON ACTIVITIES

     The Inspector General is a member of the Council of Inspectors General on
     Integrity and Efficiency (CIGIE), which was established during the reporting
     period pursuant to the Inspector General Reform Act of 2008. During the
     reporting period, the Inspector General attended monthly meetings of CIGIE, as
     well as those of its predecessor organization, the Executive Council on Integrity
     and Efficiency. The Inspector General also attended an annual IG-GAO
     coordination meeting.




                                     4
                INSPECTOR GENERAL ACT REPORTS

Section 5(a) of the IG Act requires that the following information be included in semiannual
reports.




   REFERENCE                       REPORTING REQUIREMENT                             PAGE


   Section 5(a)(1)   Significant problems, abuses or deficiencies identified          None

   Section 5(a)(2)   Recommendations for corrective action                            None

   Section 5(a)(3)   Open recommendations from previous semiannual reports            None

   Section 5(a)(4)   Matters referred to prosecutors, disposition                     None

   Section 5(a)(5)   Reports of information or assistance unreasonably withheld       None

   Section 5(a)(6)   Listing by subject of audit reports issued                      Page 3

   Section 5(a)(7)   Summary of particularly significant reports                     Page 3

   Section 5(a)(8)   Statistical table—questioned costs                              Table 1

   Section 5(a)(9)   Statistical table—recommendations that funds be put to          Table II
                     better use

  Section 5(a)(10) Audit reports from prior reporting periods for which no            None
                   management decision had been made

  Section 5(a)(11) Significant revised management decisions                           None

  Section 5(a)(12) Significant management decisions with which the IG is in           None
                   disagreement

  Section 5(a)(13) Information under section 05(b) of the FFMIA                       None




                                                5
                                         Table 1

            AUDIT REPORTS WITH QUESTIONED COSTS


                                  Number        Number
                                    of            of          Questioned   Unsupported
                                  Reports   Recommendations     Costs         Costs

A.   For which no management
     decision has been made by       0             0              0             0
     the commencement of the
     reporting period.

                                     0             0              0             0
B.   Which were issued during
     the reporting period.


                Subtotals (A+B)      0             0              0             0


C.   For which a management
     decision was made during        0             0              0             0
     the reporting period.


D.   For which no management
     decision has been made by
                                     0             0              0             0
     the end of the reporting
     period.


E.   For which no management
     decision was made within        0             0              0             0
     six months of issuance.




                                             6
                                          Table II

       AUDIT REPORTS WITH RECOMMENDATIONS THAT
              FUNDS BE PUT TO BETTER USE


                                            Number        Number
                                              of            of          Dollar Value
                                            Reports   Recommendations

A.   For which no management decision
     has been made by the commencement           0           0               0
     of the reporting period.


B.   Which were issued during the
                                                 0           0               0
     reporting period.


                        Subtotals (A+B)          0           0               0


C.   For which a management decision
                                                                             0
     was made during the reporting               0           0
     period.


D.   For which no management decision
     has been made by the end of the             0           0               0
     reporting period.


E.   For which no management decision
     was made within six months of               0           0               0
     issuance.




                                             7
                     CONTACTING THE
               OFFICE OF INSPECTOR GENERAL


In our mission to detect and prevent waste, fraud and abuse and to
promote efficiency and economy at the Postal Regulatory Commission,
the Office of Inspector General relies on information provided by PRC
staff and the general public.

Contact OIG to report illegal or wasteful activities or to receive copies
of OIG reports:

                               Telephone:
                           202-789-6817

                                 E-Mail:
                         prc-ig@prc.gov

                                Internet:
                    http://www.prc.gov/oig

                                  Mail:
                      P.O. Box 50264
                    Washington, DC 20091

 IDENTITIES OF WRITERS AND CALLERS ARE PROTECTED TO THE FULL EXTENT
                             OF THE LAW.



                                     8
